OFFICE OF THE CHIEF INFORMATION
       OFFICER’S BUDGET

         Office of the Secretary

       Report Number: FI-2005-055
       Date Issued: March 31, 2005
           U.S. Department of
                                                          Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Office of the Chief                                          Date:    March 31, 2005
           Information Officer’s Budget, DOT
           Report Number: FI-2005-055

  From:    Theodore P. Alves                                                           Reply to
                                                                                       Attn. of:   JA-20
           Assistant Inspector General for Financial
            and Information Technology Audits
    To:    Chief Information Officer

           This report addresses the results of our audit of the fiscal year (FY) 2005
           Department of Transportation Office of the Chief Information Officer (OCIO)
           information technology (IT) budget request for enhancing security, E-Government
           services, and IT investment management. We conducted this audit in response to
           a request by the Senate Committee on Appropriations.1

           The Department is responsible for one of the largest IT investment portfolios
           among civilian agencies, with an annual IT budget of about $2.7 billion. The
           Clinger-Cohen Act of 1996 requires the Department, as well as other large Federal
           agencies, to appoint a Chief Information Officer (CIO) to help the Secretary of
           Transportation manage IT investments effectively and efficiently.
           According to the Act, the CIO is responsible for providing policy guidance to the
           Department and ensuring that the Department maximizes its return on IT
           investments, with a focus on using IT to improve mission performance and service
           to the public. In the Department, the CIO reports directly to the Secretary and
           directs the OCIO.

           In November 2002, the Inspector General testified before the Congress that the
           Department still had a long way to go to adequately secure its computer systems
           and properly manage its IT investments. The Department had been operating
           without a CIO for 1½ years before this testimony. In particular, we recommended
           that the Department quickly appoint a CIO with the authority to provide


           1
               Senate Report (108-146) Accompanying the FY 2004 Appropriation on Transportation, Treasury and Government.
Department-wide leadership and enforce compliance with security guidance.2 In
response, the Department committed to strengthen its management of IT resources
and, in March 2003, appointed a CIO.

The Senate Committee on Appropriations requested this audit due to concerns
over the significant dollar increase in OCIO budget requests. Table 1 shows the
requested and enacted budgets for the OCIO beginning in FY 2001.


                     Table 1. History of OCIO Appropriations
                                   ($ in Millions)
                    Fiscal Year                  Requested                    Enacted
                       2001                        $6.9                        $6.2
                       2002                         6.3                         6.0
                       2003                        16.1                        13.0
                       2004                        23.4                        10.0*
                       2005                        16.7                        10.6
                * Includes $7.5 million appropriated by the Congress and $2.5 million received from
                  Operating Administrations through internal reprogramming.


The Committee was also concerned with the high level of generality and
vagueness in the budget justifications and with the potential for duplicative and
overlapping IT budget requests between the OCIO and the Department’s
Operating Administrations (OAs). The Committee directed the Office of
Inspector General (OIG) to submit a report to both House and Senate Committees
on Appropriations assessing plans and progress made by the Department to
improve IT security, E-Government services, and IT investment management.
The Committee also directed us to evaluate the effectiveness of OCIO efforts to
coordinate budget requests with the OAs, which are responsible for acquiring and
operating the majority of the Department’s IT systems.

Our audit objectives were to determine whether (1) the OCIO’s FY 2005 budget
request was adequately planned and supported, (2) the OCIO and OAs coordinated
with each other in preparing the FY 2005 IT budget request to avoid duplicative or
overlapping items, and (3) progress has been made to strengthen IT investment
management, improve IT security controls, and implement E-Government services
in the Department. The audit was conducted in accordance with Government
Auditing Standards prescribed by the Comptroller General of the United States.
Our scope and methodology are described in Exhibit A.



2
    Report Number CC-2003-027, “Computer Security Challenges within the Department of Transportation,”
    November 19, 2002. OIG Reports can be found on our website: www.oig.dot.gov.


                                                        ii
RESULTS IN BRIEF
The OCIO’s role in Department-wide IT issues has changed dramatically in the
last 2 years. Since FY 2003, the OCIO has played a central role in enforcing key
IT initiatives, such as overseeing IT investment management decisions and
ensuring that IT systems are secured against attack. In addition, the OCIO has
taken on more operational responsibilities, including managing the telephone
switching center for the Headquarters building and providing integrated network
services to the OAs in Headquarters.

With these changes, however, came significant budgetary consequences that
OCIO and OAs have not yet adequately addressed in budget presentations. We
found that the OCIO needs to significantly improve its budget submission and
oversight of contract services. We also found budget problems associated with the
planned consolidation of common systems across OAs.

! First, the OCIO budget request represents only a small portion of the resources
  managed by the office. The full range of OCIO responsibilities and funding
  sources has not been adequately presented to the oversight organizations.
  Specifically, the OCIO has assumed increased operational responsibilities,
  which has required the OCIO to provide IT services, on a reimbursable basis,
  to other OAs. The Department’s Working Capital Fund (WCF)3 reimburses
  OCIO for these additional services. The OCIO budget request did not describe
  the services it provides to OAs nor the amount of funds expected for
  reimbursement of those services—$50.8 million. On a combined basis, the
  OCIO expects to manage resources with a total value of $67.5 million for
  FY 2005. However, only $16.7 million of the $67.5 million (25 percent) is
  reflected in its direct budget request.

! Second, although the OCIO had begun efforts to consolidate systems in
  11 common business areas, the project management and budget responsibilities
  for these IT consolidation initiatives were not adequately defined. Historically,
  each OA made its own investment decisions and submitted separate budget
  requests to fund its system operations. Consolidating systems in common
  business areas, such as common IT support services or grant management
  operations, presents cost saving opportunities and helps eliminate the
  appearance of duplicate budget requests. However, it will require a more
  centralized approach and adjustments to the Department’s IT project
  management and budget submission practices.



3
    The WCF is used to fund both IT and non-IT administrative services. These services, provided mainly to
    OAs, were performed by the Transportation Administrative Service Center until FY 2003, when they
    were reassigned to the OCIO. Each OA contributes to the WCF for the services it receives.


                                                    iii
! Third, although OCIO’s direct budget requests more than tripled from FY 2002
  to FY 2004, the requests did not adequately describe the activities to be
  performed with the requested funds nor the benefits expected. Many of the
  terms used, such as architecture and E-Government, are not self-defining, and
  the budget documentation needs to better translate technical terms for the lay
  reader. Additionally, internal OCIO documentation supporting the OCIO’s
  budget request did not adequately identify the specific activities, milestones, or
  resources that would be undertaken. For example, the OCIO requested funding
  to hire three contractor employees (each costing over $300,000) to help
  implement the Department’s Enterprise Architecture, but the budget support
  did not specify any activities requiring such highly skilled expert help.

   In addition to providing more detailed support for its budget estimates, the
   OCIO also needs to strengthen oversight of contract services. We found one
   instance where as a result of a series of oversight lapses, the Department
   obligated approximately $700,000 for an individual’s services without
   competition and specific measurable products. The OCIO issued a series of
   22 task order modifications to extend the individual’s service period from
   6 months to 20 months, which also increased the service charge from $77,000
   to approximately $700,000. Eight of these modifications were issued
   retroactively after the services had been performed. Using such high-priced
   consulting personnel to perform broadly defined work on a nearly full-time
   basis for almost 2 years was excessive. This inappropriate use of contract
   service is related to the lack of specific action plans in the budget submission.

! Fourth, the Department needs to implement a robust and consistent
  management review process for IT investments. The Department, with an
  annual IT budget of about $2.7 billion, is responsible for one of the largest IT
  investment portfolios among civilian agencies; however, we found that the
  OCIO and OAs need to perform more substantive and proactive reviews of IT
  investments. Further, the OCIO and OAs need to provide the departmental
  Investment Review Board with adequate information needed to make informed
  decisions regarding whether or not to approve, modify, or terminate IT
  investment projects.

The OCIO’s full responsibilities and funding levels were not reflected in its
budget submission. The OCIO’s direct budget request of $16.7 million accounts
for only about 25 percent of the resources that will be provided to it during the
year. The OAs will reimburse the OCIO for the remaining $50.8 million or




                                         iv
75 percent for operational services it will provide. These services include
telephone and computer system network services, IT security services, and the
operation of the consolidated Headquarters IT infrastructure (that is, supporting
desktop computers, local area networks, and e-mail transmissions). Table 2 shows
the reimbursable services OCIO has received and requested since FY 2003.


           Table 2. OCIO Funding Sources by Fiscal Year
                                      FY 2003     FY 2004      FY 2005
       OCIO Funding Source            Received    Received    Requested
       Direct Appropriations          $13.0M      $10.0M       $16.7M
       Reimbursement by OAs
       (through the Department’s       $41.7M      $45.8M       $50.8M
       Working Capital Fund)
         Total                         $54.7M      $55.8M       $67.5M

This reimbursement approach complies with appropriations law and is not in itself
inappropriate. However, because the operational responsibilities and cost
reimbursements from OAs are not identified in OCIO’s direct budget request, the
overall budget presentation does not clearly identify the resources provided to
support these important operations.

For example, OAs are scheduled to reimburse the OCIO through the WCF about
$29 million in FY 2005 for operating the telephone switching center at the
Headquarters building. However, the $29 million is not specified in the OCIO
budget request. The current budget presentation does not provide oversight
organizations, such as the Department’s Office of Budget, the Office of
Management and Budget (OMB), and the Congress with the information they need
to make informed budget decisions about OCIO’s services and resources.

Similarly, OCIO’s efforts to consolidate office IT infrastructures are not clearly
presented in the budget. The FY 2005 direct OCIO budget request includes
$700,000 in direct funding for infrastructure consolidation. However, the OCIO
also expects to be reimbursed another $9.3 million from OAs for its IT
consolidation efforts. Because the $9.3 million is not reflected in OCIO’s budget
request, oversight organizations lack the information they need to understand the
scope of this effort and the amount of resources needed. Future OCIO budget
requests should fully describe the services to be provided to, and the
reimbursements expected from, OAs. This will provide oversight organizations
with the information needed to understand the planned use of funds at a time when
budgetary requirements are shifting.




                                        v
Budget implications of DOT’s consolidation efforts need to be better defined.
An important departmental initiative is to consolidate multiple systems maintained
by individual OAs in 11 common business areas, such as common IT support
services or grant management operations. The Department invests about
$300 million annually to operate individual systems in these areas. Consolidating
systems in these common business areas presents cost saving opportunities and
helps eliminate the appearance of duplicate budget requests. However, it will
require a more centralized approach and adjustments to the Department’s IT
project management and budget submission practices.

Historically, each OA made its own investment decisions and submitted separate
budget requests to fund its system operations. The consolidation efforts may
require changes in how budget funds are allocated between OCIO and the OAs. In
November 2004, the Department identified sponsors for each of the 11 common
business areas. However, these sponsors have neither project management nor
budget authority over individual OA systems. The Department needs to complete
analyzing performance gaps and recommending how these systems should be
consolidated and managed. In addition, the OCIO should ensure that future-year
budget submissions reflect the planned use of anticipated cost savings from these
consolidation initiatives.

The line items in the OCIO’s budget request did not specify the activities to
be undertaken. For FY 2005, the OCIO requested $16.7 million—a 67 percent
increase from the FY 2004 funding level—to strengthen the Department’s IT
investment management, protect IT systems from attack, and implement
E-Government services. In several cases, the narrative describing the activities to
be undertaken and the benefits to be achieved did not provide enough information
for oversight organizations to understand how the funds would be used. For
example, to strengthen IT management, the OCIO needs to ensure that OAs fully
implement the newly developed capital planning and investment control
procedures. However, the budget did not describe what activities the OCIO would
undertake to do this.

Further, when we looked at OCIO documents supporting the budget request, we
found that, in some cases, the OCIO had not developed sufficiently detailed work
plans and reliable cost estimates. These are needed so that the OCIO can plan and
focus its efforts on continuing to improve IT investment management, IT security,
and E-Government services. The OCIO budget requests should clearly describe
these improvement efforts.

Enhancing IT investment management, IT security, and E-Government services
will be a multi-year effort. The OCIO should have a multi-year plan identifying
the long-term goals, interim activities, milestones, and resources needed to
adequately strengthen capital planning and investment control practices

                                        vi
throughout the Department. That plan should then be the basis for annual budget
requests. The following paragraphs briefly outline the FY 2005 budget requests
and the weaknesses we identified in IT investment management, IT security, and
E-Government services.

! IT Investment Management.         The funding request for IT investment
  management represents the largest direct OCIO budget increase in FY 2005—
  from $2 million (FY 2004 enactment) to $5.4 million largely due to additional
  contractor costs. However, we found that the OCIO’s budget support
  documentation did not describe the specific activities it planned to undertake to
  improve IT management practices in the Department. Also, technical terms
  such as “enterprise architecture,” are not self-explanatory and need to be
  described more fully.

   This lack of detailed supporting documentation also made the OCIO’s cost
   estimates questionable. For example, in reviewing support documentation
   used to develop its funding request, we found the OCIO planned to hire three
   technical experts (at over $300,000 each) to help implement the Department
   Enterprise Architecture, but the OCIO had not prepared a work plan specifying
   what work would be performed by such highly skilled contractors.

   In addition to providing more detailed support for its budget estimates, the
   OCIO also needs to ensure that it provides adequate oversight to contracts it
   awards. We found one instance where inadequate oversight of a contract to an
   individual consultant led to excessive charges. About $700,000 was obligated
   over 20 months for work that was not competed and largely lacked measurable
   products. While obtaining expert help is a legitimate use of contract services,
   management should be mindful that it needs to seek competition and
   effectively use resources. In this case, because management did not identify
   specific requirements the contractor was to meet, it was not in a position to
   ensure that it received the best value from the services provided by the
   contractor.

   As a result of a series of contract oversight lapses, the Department awarded
   approximately $700,000 for the individual’s services without competition. The
   OCIO avoided competition by directing an existing contractor to hire the
   individual as a sub-contractor. The Statement of Work for this individual’s
   services was also broadly worded and did not define specific task-oriented
   deliverables. For example, the individual was asked to advise the OCIO on
   ways to improve the IT capital planning and enterprise architecture
   development process. However, instead of delivering reports identifying
   improvement opportunities, the individual was only required to provide




                                        vii
   undefined weekly status reports. Consequently, the Department could not
   objectively evaluate the individual’s performance.

   Also, the contract was allowed to grow to excessive levels without
   competition. The OCIO issued a series of 22 modifications to the task order
   that extended the service period from 6 months to 20 months and increased the
   cost of the individual’s services from $77,000 to approximately $700,000.
   Eight of these modifications were issued retroactively after the services had
   been performed. Using such high-priced consulting personnel to perform
   broadly defined work on a nearly full-time basis for almost 2 years was
   excessive.

   This inappropriate use of contract service is related to the lack of specific
   action plans in the budget submission. Future budget requests should be
   supported by more detailed plans describing needed activities, milestones, and
   resource requirements. These plans should then be used to award contracts
   with clearly defined product deliverables. In addition, both the OCIO and the
   Office of Acquisition, which is responsible for contract administration, need to
   develop an action plan to strengthen oversight of contract services.

! IT Security. The funding request for IT security increased from $3.7 million
  (FY 2004 enactment plus reprogramming) to $4.8 million in FY 2005. Under
  the OCIO’s leadership, the Department has strengthened IT security protection
  significantly in two areas—protecting IT infrastructure against attacks from the
  Internet and increasing the percentage of IT systems certified as having
  adequate security to support OA missions. However, both the OCIO and the
  OAs requested funding to protect IT infrastructure in the FY 2005 budget
  request.

   Specifically, one of the planned activities in the OCIO’s FY 2005 budget
   request was to install advanced vulnerability remediation and patch
   management software (estimated to cost $2 million) to protect the
   Department’s IT infrastructure. About 90 percent of the installation will be on
   the Federal Aviation Administration (FAA) network computers. We found
   that FAA is pursing a similar solution, and the two requests had not been
   properly coordinated. The OCIO stated that its request is necessary to ensure
   consistent oversight of all OA infrastructure. However, considering today’s
   tight budget environment, the OCIO should avoid duplicate funding requests
   between the OCIO and OAs by ensuring OAs coordinate with the OCIO for
   performing similar tasks, such as evaluating and remediating network
   vulnerabilities with different software tools.




                                       viii
! E-Government Services. The OCIO budget request for E-Government services
  increased from $1.3 million in FY 2004 to $2.1 million in FY 2005. The
  request covered two activities:       consolidating the Department’s IT
  infrastructure and supporting OMB E-Government initiatives. In both cases,
  the budget contained only high-level general statements about how the funds
  would be used.

   The OCIO needs to ensure that its IT infrastructure consolidation effort is
   carefully planned and justified.        The budget request decreased from
   $0.8 million in FY 2004 to $0.7 million in FY 2005. However, the budget
   narrative provides little information for oversight organizations to understand
   the nature and scope of the proposed effort. In fact, the current IT
   infrastructure consolidation effort only addresses the Department’s
   Headquarters operations, which accounts for about 15 percent of the
   Department’s annual investment in IT infrastructure, $192 million. The OCIO
   expects an 18 percent to 26 percent reduction in costs from consolidating the
   IT infrastructure at the Headquarters, based on industry averages. While we
   agree that such consolidation presents a cost-saving opportunity, we are
   concerned that the OCIO has not tailored the industry cost saving average
   based on the Department’s needs and has not determined how the anticipated
   savings would be reflected in future-year budget submissions.

   Duplicate IT infrastructures exist not only at the departmental Headquarters but
   also at FAA Headquarters and OA field offices. For example, FAA uses about
   10 separate network infrastructures to support its Headquarters operations.
   Four OAs with field offices co-located in San Francisco use separate networks
   to stay connected with the departmental Headquarters. A Department-wide
   consolidation could be expected to generate significant additional savings. The
   OCIO needs to perform an analysis of the savings that could be achieved from
   consolidating the entire Department for the departmental Investment Review
   Board’s consideration.

   In addition, there is a related management issue concerning one of OMB’s
   E-Government initiatives. The OCIO budget request to support OMB’s
   E-Government initiatives increased from $0.5 million (FY 2004 enactment) to
   $1.4 million. The Department is participating in 15 of the 24 OMB-sponsored
   E-Government initiatives and is generally on, or slightly behind, planned
   implementation schedules, except for the E-payroll initiative.

   OMB initially required the Department to start using another agency’s—the
   Department of the Interior’s—payroll system to support the Department’s
   operations in October 2004. This initiative has proven to be more complicated
   than originally envisioned. First, since the Interior’s system provides
   integrated payroll and personnel services, the Department decided to migrate

                                        ix
      both operations.      Second, converting FAA operations requires system
      modifications because FAA is exempted from Title 5 of the United States
      Code. As a result, OMB agreed to revise the target completion date to October
      2005. This change has caused a cost increase estimated by the Deputy Chief
      Financial Officer to be at least $2 million.

      The E-payroll project is managed by the Office of the Assistant Secretary for
      Administration with support from the OCIO and the Assistant Secretary for
      Budget and Programs/Chief Financial Officer under the direction of an
      executive steering committee.5 An internal review indicated that the E-payroll
      initiative was not properly planned and may lack the necessary resources to
      meet the stated completion dates. We would expect that a primary focus in
      FY 2005 would be to improve oversight of this project. The OCIO needs to
      work with the executive steering committee to complete and implement a
      detailed action plan to address weaknesses in the E-payroll project and submit
      the plan to the House and Senate Committees on Appropriations, as directed by
      the Senate.6

The Department needs to implement a robust and consistent review process
for IT investments. The departmental Investment Review Board was not
performing substantive and proactive reviews of IT investments. The Investment
Review Board reviewed 10 major projects, with a total life-cycle cost of $7.5
billion, through September 2004. However, we determined that for 3 of the 10
projects, known management problems were not presented to the Investment
Review Board. This happened because OAs were not presenting the Investment
Review Board with adequate information needed to make informed decisions
about whether to approve, modify, or terminate projects.

In addition, more needs to be done to ensure adequate investment review by OA
management. The Department’s guidance authorizes each OA to establish its own
review board to review IT investment projects. The departmental Board reviews
only major investments—projects exceeding certain dollar thresholds or those
deemed to have a significant impact on departmental missions. IT investments not
meeting these criteria are deemed non-major. These investment projects, totaling

5
    The E-payroll executive steering committee is composed of representatives of the Assistant Secretary for
    Administration, the Assistant Secretary for Budget and Programs/Chief Financial Officer, departmental Chief
    Information Officer, the Federal Aviation Administration, and the Federal Highway Administration (who represents
    all remaining OAs).
6
    Transportation, Treasury and General Government Appropriations Bill, 2005; Senate Report 108-342; September 15,
    2004. The Committee directs the OCIO working with the Assistant Secretary for Administration to submit a plan to
    the House and Senate Committees on Appropriations within 90 days of appropriations enactment that addresses the
    weaknesses identified by the Inspector General as they relate to E-payroll. The plan at a minimum shall include:
    (1) the original cost, (2) the original scope of the project, (3) any deviation from the original scope, (4) all cost
    increases over the original cost, (5) the estimated cost of completion, and (6) specific steps taken to improve project
    oversight and accountability.


                                                             x
$600 million, should have been reviewed by OA boards in accordance with the
Department’s policy. However, we found that non-major projects were not
adequately reviewed. The OCIO needs to ensure that OAs follow departmental
guidance in reviewing and managing all IT investments.

In response to concerns we raised, the Department has taken steps to strengthen IT
investment management reviews. In September 2004, the OCIO updated its
criteria for selecting at-risk projects for the departmental Investment Review
Board’s review and issued specific guidance addressing the need for OAs to
review non-major IT investments. In October 2004, the Investment Review Board
also decided to consider a project’s original baseline in evaluating project risks.


SUMMARY OF RECOMMENDATIONS
   • To provide adequate information for oversight organizations’
     decision-making, we are recommending that the OCIO disclose the full
     range of OCIO responsibilities and other sources of funding, including the
     departmental Working Capital Fund, in future-year budget submissions.

   • To prepare for the FY 2007 budget review, we are recommending that the
     OCIO complete performance gap analyses for the proposed consolidation
     of common systems by June 2005 for the departmental Investment Review
     Board’s consideration and keep the House and Senate Committees on
     Appropriations informed of the planned actions.

   • To enhance future budget submissions, we are recommending that the
     OCIO develop a multi-year plan for continued enhancement of IT
     investment management, IT security, and E-Government services;
     strengthen oversight of contractors work; and better coordinate with OA
     CIO offices to avoid duplicate funding requests for performing similar
     services.

   • To implement the E-Government initiatives, we are recommending that the
     OCIO refine the cost saving estimates (18 percent to 26 percent based on
     the industry average) for the planned consolidation of the Headquarters IT
     infrastructure; work with the E-payroll executive steering committee to
     strengthen oversight of the planned conversion to the Department of the
     Interior’s payroll system; and submit the action plan for increased
     oversights to the House and Senate Committees on Appropriations, as
     directed by the Senate committee.

A complete list of our recommendations can be found on pages 12 and 13 of this
report.


                                        xi
AGENCY COMMENTS
We provided the OCIO with a draft of this report on March 1, 2005, and the OCIO
provided a written response on March 30, 2005. The OCIO concurred with all
nine recommendations and provided corrective action dates for recommendations
4 and 7. OCIO requested we modify page ix of our report to read “the OCIO
stated that its request is necessary to ensure consistent oversight of all OA’s
infrastructure. However, considering today’s tight budget environment, the OCIO
should have insisted that the FAA coordinate their activities to determine the most
cost effective way to meet the DOT requirement.” We have modified our report to
reflect the intent of this requested change.

ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, we request that
you provide specific corrective action dates for recommendations 1, 2, 3, 5, 6, 8,
and 9 within 30 days.

We appreciate the courtesies and cooperation of the Department of
Transportation’s OCIO representatives during this audit. If you have any
questions concerning this report, please call me at (202) 366-1496 or Rebecca C.
Leng, Deputy Assistant Inspector General for Information Technology and
Computer Security, at (202) 366-1488.

                                        #
cc:   Martin Gertel, M-1




                                        xii
                               TABLE OF CONTENTS



FINDINGS .............................................................................................. 1
    The OCIO Needs To Identify Its Full Responsibilities
    and Funding in Budget Request........................................................ 1
    Budget Implications of the Department’s System
    Consolidation Efforts Need To Be Better Defined............................. 2
    The OCIO Needs To Specify the Activities To Be
    Undertaken in Its Budget Request .................................................... 4
    The Department Needs To Implement a Robust and
    Consistent Management Review Process for IT
    Investments ..................................................................................... 10

RECOMMENDATIONS........................................................................ 12

AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE....................................................................... 13

ACTION REQUIRED............................................................................ 16

EXHIBIT A. SCOPE AND METHODOLOGY ..................................... 17

EXHIBIT B. MAJOR CONTRIBUTORS TO THIS
REPORT .............................................................................................. 18

APPENDIX. AGENCY COMMENTS................................................... 19
                                                                                    1




FINDINGS

The OCIO Needs To Identify Its Full Responsibilities and Funding in
Budget Request
Our review of the Office of the Chief Information Officer’s (OCIO) budget found
that its direct appropriation request represents only a small portion of the resources
managed by OCIO. In addition to direct appropriations, the OCIO receives
reimbursements from the Operating Administrations (OAs) through the
Department’s Working Capital Fund (WCF). While these reimbursements
account for about 75 percent of the resources OCIO controls, they are not reflected
in its FY 2005 budget request of $16.7 million. Specifically, an additional
$50.8 million will be provided to the OCIO from the Department’s WCF in
FY 2005.

Table 2 on page v shows the source of the majority of OCIO’s resources since
FY 2003, when it was made responsible for providing operational services.

The WCF was created to fund common administrative services provided to the
various OAs. The fund is financed through negotiated agreements with the OAs.
Although the program was renamed the Transportation Administrative Service
Center in fiscal year (FY) 1997, its activities were moved back to the WCF during
FY 2003.

The OCIO provides services to the OAs through the WCF in five major areas:
(1) operating the Headquarters telephone switching center, (2) operating the
consolidated IT infrastructure, (3) supporting WCF administrative functions,
(4) operating the departmental computer network, and (5) providing IT security.
Table 3 is a breakout of WCF items for OCIO for FYs 2004 and 2005.


           Table 3. Funding for OCIO Working Capital Fund
                           Responsibilities
              Working Capital Fund Items                      FY 2004 FY 2005
  Operate HQ’s Telephone Switching Center                      $22.7M $28.8M
  Operate Consolidated IT Infrastructure                         6.5M    9.3M
  Support Common WCF Administrative Functions                    7.6M    7.4M
  Operate Departmental Network                                   3.1M    3.3M
  Provide IT Security                                            2.1M    2.0M
                                                               $42.0M $50.8M
  Discontinued Services                                          3.8M      0M
   Total                                                       $45.8M $50.8M
                                                                              2



The OCIO is reimbursed through the Department’s WCF for IT services it
provides to the entire Department. For example, OAs are scheduled to reimburse
the OCIO about $29 million in FY 2005 for operating the telephone switching
center at the Department’s Headquarters building. Other WCF responsibilities
assigned to the OCIO include managing the Department’s integrated network
services, providing IT security protection, and establishing a consolidated IT
infrastructure to support OAs’ day-to-day office automation needs. However, the
OCIO budget request did not describe the specific services it provides to OAs or
the specific amounts it expects to be reimbursed for those services.

As a result, oversight organizations, such as the Department’s Office of Budget,
the Office of Management and Budget (OMB), and the Congress, lack the
information they need to make informed budget decisions about the OCIO’s
services and resources. The OCIO budget request should describe in full the
services to be provided to OAs and the reimbursements expected from OAs.


Budget Implications of the Department’s System Consolidation
Efforts Need To Be Better Defined
Identifying opportunities to consolidate systems in common business areas is a
major departmental FY 2005 initiative. However, these efforts are in an early
stage of implementation and still present challenges to the Department.

The Department developed the Modernization Blueprint in September 2003. The
blueprint cites the need to consolidate common departmental IT investments.
After reviewing areas that could be consolidated, the OCIO and OAs identified
opportunities to streamline systems in 11 business areas, as are outlined in
Table 4. In November 2004, the Department identified sponsors for each of the
11 common business areas. However, these sponsors have neither project
management nor budget authority over individual OA systems. The Department
needs to complete analyzing system requirements and performance gaps and
recommending how these systems should be consolidated and managed. In
addition, the OCIO should ensure that future year budget submissions reflect the
planned use of anticipated cost savings from these consolidation initiatives.
                                                                                                                    3



                      Table 4. Common Investments Identified
                             In FY 2006 Business Cases
         Business Areas                      No. of             Consolidated                  Amount of
                                            Current             Business Case               FY 2006 Budget
                                            Systems             Submitted for                   Request
                                                                  FY 2006                    (in Millions)
    1    Enterprise
         Architecture                            11                      Yes                            $     7.2
    2    Enterprise Document
         Management                           TBD*                       Yes                                  9.6
    3    Financial Management                  26                        Yes                                 45.0
    4    Grants Management                      5                        Yes                                  7.3
    5    Interfaces to
         International Trade
         Data System                          TBD*                       Yes                                  0.1
    6    Intermodal Hazardous
         Materials                            TBD*                       Yes                                  0.5
    7    IT Infrastructure                     61                        Yes                                214.6
    8    Recruitment                          TBD*                       Yes                                  0.2
    9    Internal Rulemaking
         Management                              3                       No                                   0.4
    10   Procurement
         Management                               9                      No                                 5.5
    11   Training                                18                      No                                 8.3
          Total                                                                                         $ 298.7
*TBD = To Be Determined

For the FY 2006 budget submission, the Department has decided to continue
requesting separate funding for the 11 business areas. However, as an initial step
to consolidation, in September 2004, the Department prepared consolidated
business cases (Exhibit 300) for 8 of 11 business areas, listing all individual
systems and corresponding funding sources.7 The departmental Investment
Review Board requested the OCIO and the OAs to analyze and compare each
system’s capability, identify performance deficiencies, and develop a unified
approach to eliminate duplication.

We view this as a critical step in consolidating common systems and achieving
cost reductions. However, the OCIO needs to coordinate with the OAs to develop
work plans and timetables for analyzing the systems, analyzing performance gaps,
and recommending how these systems should be consolidated and managed. In

7
    The Department plans to submit consolidated business cases for the remaining three business areas for the FY 2007
    budget cycle.
                                                                                                          4


addition, the OCIO should ensure that future-year budget submissions reflect the
anticipated cost savings that will be achieved from consolidations and describe
how the savings will be put to better use on other projects or activities.

Without such analysis, the Department does not know what cost reductions can be
achieved from consolidating these systems or the implications for future OCIO
and agency budgets. Quantifying the budgetary impact should provide additional
insight to the Appropriations Committees and OMB about the potential to reduce
costs. Congress should be fully informed of the Department’s planned actions and
associated budget implications.


The OCIO Needs To Specify the Activities To Be Undertaken in Its
Budget Request
In FY 2004, the Senate and House Committees on Appropriations did not approve
the OCIO increased funding request due to the high level of generality and
vagueness presented in its budget justification. In response to the Committees’
request, we reviewed the support documentation for the OCIO’s FY 2005 budget
request of $16.7 million—a 67 percent increase over the amount enacted in
FY 2004. The request included funds to strengthen IT investment management,
improve IT security controls, and implement E-Government services. We found,
in several cases, that the OCIO direct budget request lacked clarity and specificity
because it was not supported by detailed work plans and reliable cost estimates.
Table 5 outlines the OCIO budget for FY 2004 and FY 2005.

                Table 5. OCIO FY 2004 and FY 2005 Budgets
                                                                                         FY 2005
                     Budget Items                            FY 2004 Enacted
                                                                                        Requested
  IT Investment Management
  --Develop Enterprise Architecture                           $0.7M                   $2.3M
  --Implement Capital Planning Controls                         0.9M                    2.3M
  --Develop IT Strategic Management                             0.4M                    0.8M
                                                              --------     $2.0M      --------    $5.4M
  IT Security*
  --Protect IT Infrastructure                                   2.7M                    3.4M
  --Develop Common Access Architecture                          0.1M                    0.9M
  --Promote DOT-wide Security Projects                          0.9M                    0.5M
                                                              --------         3.7M   --------    4.8M
  E-Government
  --Consolidate Agencies’ IT Infrastructure                     0.8M                    0.7M
  --Support OMB E-Government Initiatives                        0.5M                    1.4M
                                                              --------      1.3M      --------     2.1M
  Resource Management/OST IRM Services                                      3.0M                   4.4M
  Total                                                                   $10.0M                 $16.7M
    * FY 2004 figure includes $2.5M from OAs through internal reprogramming.
                                                                                   5


Although the OCIO direct budget requests more than tripled between FY 2002 and
FY 2004, we found, in several cases, that the FY 2005 request did not adequately
describe the activities to be performed with the requested funds. The descriptions
of activities to be funded are at a high level of generalization and do not specify
the activities to be undertaken or the benefits expected. Further, because many of
the terms used, like architecture and E-Government, are not self-defining, the
budget justification needs to better translate technical terms for the lay reader.

Internal OCIO documentation supporting its budget request also did not include
specific activities, milestones, and resources that would be undertaken. For
example, neither the OCIO’s FY 2005 budget request nor supporting documents
described the specific activities the OCIO planned to improve IT management
practices. In one case, we identified an overlapping IT security investment
between OCIO and the Federal Aviation Administration (FAA).

The Department has made significant progress in implementing IT Investment
Management, IT Security, and E-Government services; however, much more
needs to be done to ensure that it manages its information resources efficiently and
effectively. The OCIO needs to focus its efforts on continuing to improve in each
of the three key areas, and its budget requests should clearly support these
improvement efforts. To accomplish this, the OCIO budget requests should be
closely linked to a multi-year plan that depicts not only the long-term goals but
also the interim activities, milestones, and resources needed to ensure continued
improvement in each area. Equally important is that when OCIO and OAs request
funds for similar activities, the budgets need to be coordinated to eliminate overlap
and duplication.


OCIO Budget Request Did Not Adequately Describe Its Investment
Management Efforts
The funding request for IT investment management represents the largest
requested OCIO budget increase in FY 2005—from $2 million (FY 2004
enactment) to $5.4 million. This increase is largely due to additional contractor
costs for supporting the Department’s enterprise architecture (a blueprint for IT
modernization efforts) implementation, as well as capital planning tools.
However, we found that the OCIO’s budget support documentation did not
describe the specific activities planned to improve IT management practices in the
Department. Instead, the supporting documentation described only broad areas,
such as implementing the enterprise architecture. This lack of specificity also
made OCIO’s cost estimates questionable.

For example, OCIO requested funding to hire three contractor employees (each
costing over $300,000) to help implement the Department’s enterprise
                                                                                  6


architecture, but the budget support did not specify any activities requiring such
highly skilled help. Without defining specific activities for contractors, OCIO is
unable to effectively oversee them because there are no performance measures.

In addition to providing more detailed support for its budget estimates, the OCIO
also needs to ensure that it provides adequate oversight to contracts it awards. We
found one instance where inadequate oversight of a contract to an individual
consultant led to excessive charges. About $700,000 was obligated over
20 months for work that was not competed and largely lacked measurable
products. While obtaining expert help is a legitimate use of contract services,
management should be mindful that it needs to seek competition and effective use
of resources. In this case, because management did not identify specific
requirements the contractor was to meet, it was not in a position to ensure that it
received the best value from the services provided by the contractor.

As a result of a series of contract oversight lapses, the Department awarded
approximately $700,000 for the individual’s services without competition. The
OCIO avoided competition by directing an existing contractor to hire the
individual as a sub-contractor. The Statement of Work for this individual’s
services was also broadly worded and did not define specific task-oriented
deliverables. For example, the individual was asked to advise the OCIO on ways
to improve the IT capital planning and enterprise architecture development
process. However, instead of delivering reports identifying improvement
opportunities, the individual was only required to provide undefined weekly status
reports. Consequently, the Department could not objectively evaluate the
individual’s performance.

Also, the contract was allowed to grow to excessive levels without competition.
The OCIO issued a series of 22 modifications to the task order that extended the
service period from 6 months to 20 months and increased the cost of the
individual’s services from $77,000 to approximately $700,000. Eight of these
modifications were issued retroactively after the services had been performed.
Using such high-priced consulting personnel to perform broadly defined work on a
nearly full-time basis for almost 2 years was excessive.

This inappropriate use of contract service is related to the lack of specific action
plans in the budget submission. Future budget requests should be supported by
more detailed plans describing needed activities, milestones, and resource
requirements. These plans should then be used to award contracts with clearly
defined product deliverables. In addition, both the OCIO and the Office of
Acquisition, which is responsible for contract administration, need to develop an
action plan to strengthen oversight of contract services.
                                                                                 7


Greater Disclosure and Coordination Is Needed To Prevent Overlapping IT
Security Requests
The funding request in the IT security area increased from $3.7 million (FY 2004
enactment plus reprogramming) to $4.8 million. In addition, the OCIO is
expecting to receive about $800,000 of WCF reimbursements from the OAs for
providing IT security services. While OCIO’s direct budget was supported by
documentation containing specific work plans, there was no supporting work plan
in the OA or OCIO budget documents describing how the $800,000 OA
reimbursement would be used. The IT security services the OCIO plans to
provide through its direct appropriation and those to be provided through
reimbursements from the WCF overlap. Both requests were justified on the basis
that the OCIO would help protect the Department’s IT infrastructure through
activities such as incident detection and vulnerability monitoring.

Under the OCIO’s leadership, the Department has strengthened IT security
protection significantly in two areas—protection of IT infrastructure against
attacks from the Internet and increasing the percentage of IT systems certified as
having adequate security to support OA missions. Specifically, one of the planned
activities in the OCIO’s FY 2005 budget request was to install advanced
vulnerability remediation and patch management software (estimated to cost
$2 million) to protect the Department’s IT infrastructure. About 90 percent of the
installation will be on FAA network computers. We found that FAA is pursing a
similar solution, and the two requests had not been properly coordinated. The
OCIO stated that its request is necessary to ensure consistent oversight of all OA
infrastructure. However, considering today’s tight budget environment, the OCIO
should avoid duplicate funding requests between OCIO and OAs by ensuring OAs
coordinate with OCIO for performing similar tasks, such as evaluating and
remediating network vulnerabilities with different software tools.

During FY 2004, the Congress approved the Department’s reprogramming request
of $2.5 million to augment OCIO’s budget for protecting the IT infrastructure and
doing system certification reviews. Our review of OCIO’s FY 2005 budget
request indicated a shift from doing security certification reviews of agency
systems to performing quality assurance reviews of OA security work. We view
this as a step in the right direction for maintaining clear division between OCIO’s
and the OAs’ responsibilities because it more closely aligns the CIO oversight role
with the Clinger-Cohen Act.


OCIO Needs To Provide Additional Information To Support E-Government
Services
The OCIO’s funding request for supporting OMB’s E-Government initiatives
increased from $1.3 million (FY 2004 enactment) to $2.1 million. Two of the
                                                                                  8


major initiatives are to consolidate the Department’s fragmented IT infrastructure
and to convert the Department to another agency’s payroll system as part of the
Government-wide E-payroll effort. We found that the Department has not
performed adequate analysis to identify the full cost-saving potential for
consolidating the IT infrastructure and to reflect the anticipated savings in future
budget submissions. We also noted a need to enhance project management
oversight of the E-payroll conversion effort to avoid further delays and cost
overruns.

The IT Infrastructure Consolidation Is Limited to the Department’s
Headquarters. Currently, each departmental OA is responsible for managing its
own IT infrastructure, such as desktop computers, networks, and e-mail services.
Based on the FY 2005 budget submission, the Department requests about
$192 million annually to maintain all of these separate IT infrastructures.

The OCIO has initiated an effort to replace these fragmented infrastructures at the
departmental Headquarters. It will merge 10 separate IT operating environments,
thousands of computers, and dozens of networks into a single, common operating
environment. The OCIO expects an 18 percent to 26 percent reduction in costs
from the consolidation, based on industry averages. While we agree that such
consolidation presents a cost-saving opportunity, we are concerned that the OCIO
has not tailored the industry cost-saving average to the Department’s needs and
has not determined how the anticipated savings would be reflected in future-year
budget submissions.

Also, the benefits of the current consolidation are limited because Headquarters
operations account for only about 15 percent of the Department’s annual
$192 million investment in IT infrastructure, as is shown in Table 6.

            Table 6. The Department’s Cost of Operating
                         Separate Networks
         Non-FAA OAs                                 Cost  Percentage
           Headquarters                               $28M    15%
           Field Offices                               53M    27%
         FAA                                          111M    58%
          Total                                     $192.M   100%

Currently, each OA is responsible for requesting funds to operate its own network
computers. As a result, duplicate IT infrastructures exist not only at the
departmental Headquarters but also at FAA Headquarters and OA field offices.
For example, FAA uses about 10 separate network infrastructures to support its
Headquarters operations. Four OAs with field offices co-located in San Francisco
use separate networks to stay connected with the departmental Headquarters.
                                                                                                                  9


Integrating these fragmented networks could result in immediate and substantial
cost savings to the Department. The Department, however, has not performed a
study to determine the full potential cost saving for consolidating the entire
departmental IT infrastructure.8

To address these issues, the OCIO needs to work with the OAs to perform a
thorough analysis of the savings that can be expected from the current limited
consolidation and the savings that could be achieved by consolidating the IT
infrastructure Department-wide. The OCIO should make appropriate proposals in
future budget requests based on this analysis.

OCIO Needs To Complete an Action Plan To Deal With the Delayed
E-Payroll Project.         The Department is participating in 15 of the
24 E-Government services initiated by OMB. The Department is on, or slightly
behind, planned implementation schedules for all E-Government projects except
the E-payroll initiative. Under the E-payroll initiative, OMB initially required the
Department to use the Department of the Interior’s payroll services and
discontinue its own payroll system operations by October 2004.

This initiative has proven to be more complicated than originally envisioned.
First, since the Interior’s system provides integrated payroll and personnel
services, the Department decided to migrate both operations. Second, converting
FAA operations requires system modifications because FAA is exempted from
Title 5 of the United States Code. Also, the Department had to make
arrangements for continued payroll support of employees transferred to the
Department of Homeland Security. As a result, OMB agreed to revise the target
completion date to October 2005. This change has caused a cost increase
estimated by the Deputy Chief Financial Officer of at least $2 million.

The E-payroll project is managed by the Office of the Assistant Secretary for
Administration with support from the OCIO and the Assistant Secretary for
Budget and Programs/Chief Financial Officer under the direction of an executive
steering committee. An internal review indicated that the E-payroll initiative was
not properly planned and may lack the necessary resources to meet the stated
completion dates. The Department is assessing the review results and formulating
a plan to address weaknesses and budget implications within the project. We
would expect that a primary focus in FY 2005 would be to improve oversight of
this project. The OCIO needs to work with the executive steering committee in
completing and implementing a detailed action plan that addresses weaknesses in


8
    OMB also asked for clarification on the extent to which the FAA network could be used to support the Department-
    wide network infrastructure in its review of the FY 2006 budget submission. The Department has agreed to further
    examine this issue.
                                                                               10


the E-payroll project and submit the plan to the House and Senate Committees on
Appropriations, as directed by the Senate.


The Department Needs To Implement a Robust and Consistent
Management Review Process for IT Investments
The Department, with an annual IT budget of about $2.7 billion, is responsible for
one of the largest IT investment portfolios among civilian agencies. The
Clinger-Cohen Act requires the Department to appoint a CIO responsible for
ensuring cost-effective IT investments, including proper security protection. In
FY 2003, we reported that the Department appointed a CIO and it increased the
CIO’s influence over IT decisions by forming the departmental Investment
Review Board (the Board). The Board, chaired by the Deputy Secretary, has the
authority to approve, modify, or terminate major IT investments.

However, we concluded that it was too early to judge whether these changes
would substantially improve the Department’s oversight of IT investments.
Specifically, we were concerned that the Board had focused its reviews on
Department-wide IT projects, such as implementation of a new departmental
accounting system, and had provided little oversight of OA-specific IT investment
projects. This was inadequate, considering that over 90 percent of the
Department’s IT budget is appropriated directly to OAs and a number of their
investments had experienced significant cost overruns and schedule delays in
recent years. We were also concerned with the lack of substantive, in-depth
review of OA IT budget submissions and poor communications between the Board
and the OAs.

During FY 2004, the Department took corrective actions to enhance the
management review process. However, more needs to be done.


The Departmental Investment Review Board Needs Better Information To
Review IT Investments
The Board needs better information to perform more substantive and proactive
reviews of IT investments. The Board has reviewed 10 major projects, with a total
life-cycle cost of $7.5 billion through September 2004. However, we determined
that for 3 of the 10 projects, known management problems were not presented to
the Board. A further review of minutes from Board meetings showed that the
Board raised substantive questions about the status of only one project. The Board
allowed 9 of the 10 projects to continue without modification. Overall, the Board
was not being presented with the information it needed to make informed
decisions about whether to approve, modify, or terminate projects.
                                                                                                      11


We also found that the Board did not include for review key FAA projects with a
history of trouble. In recent years, we have issued audit reports on FAA’s major
acquisitions involving extensive software development work that required senior
management level attention.9 We reported that of 20 major acquisitions reviewed,
13 projects had experienced schedule slips of 1 to 7 years, and 14 projects had
experienced cost growth of over $4.3 billion (increasing from $6.8 billion to
$11.1 billion). Yet, the list of projects reviewed by the Board in FY 2004 did not
include many of those we reported as having cost and schedule problems. In
response to our work, the Board added three of FAA’s major acquisition projects
to its watch list—the Wide Area Augmentation System, the Standard Terminal
Automation Replacement System, and the Integrated Terminal Weather System.

Reviewing troubled projects is important, but the Board also needs to monitor
projects that have not yet become troubled—exceeding target costs and schedule
by more than 10 percent. A key objective of the Board should be to prevent
projects from breaching the threshold (10 percent overruns) and becoming
troubled. This is especially important considering that FAA is beginning a new,
costly, and complex acquisition program, the En Route Automation Modernization
Program, which will cost billions of dollars to implement and will provide new
hardware and software for facilities that manage high-altitude traffic.

In response to concerns we raised, the Department has taken corrective actions to
strengthen the IT investment management review. In September 2004, the OCIO
updated its criteria for selecting at-risk projects for the Board’s review, including
projects with revised baselines and projects showing a negative trend. In October
2004, the Board also decided to consider a project’s original baseline in evaluating
project risks. We will monitor the progress of implementing this new guidance
and keep senior management and oversight officials informed of the outcome.


Better OA Review of IT Investment Projects Is Needed
Communication between the Board and the OAs has improved significantly.
During FY 2004, the Board expanded its membership to include OA
representatives. The FAA Administrator has joined the Board in reviewing and
approving major IT investment projects. In addition, the Board created three
additional members who will come from the remaining OAs on a rotating basis.
Although the Board benefits from the OAs’ input when reviewing major IT
investment projects, more needs to be done to ensure that OA investment review
boards operate effectively.


9
    OIG Report Number PT-2004-006, “The Department’s Top Management Challenges,” December 5, 2003, and OIG
    Report Number AV-2003-045, “Status of FAA’s Major Acquisitions,” June 26, 2003.
                                                                                           12


The Department’s guidance authorizes each agency to establish its own
management board to review IT investment projects. The departmental Board
reviews only major investments—projects exceeding certain dollar thresholds or
those deemed to have a significant impact on departmental missions. IT
investment projects not meeting these criteria are deemed non-major. These
investment projects, totaling $600 million, should have been reviewed by OA
management boards in accordance with the Department’s policy. However, we
found that less than 10 percent of non-major investments were reviewed by OA
management boards during FY 2004. In September 2004, the OCIO issued
specific guidance addressing the need for OAs to review non-major IT
investments as part of the OA investment management review. This needs to be
enforced throughout the Department. Since we recommended corrective actions
for this issue in another audit report,10 we are not making additional
recommendations.


RECOMMENDATIONS
To provide adequate information to oversight organizations so they can make
informed budget decisions, we recommend that the Department’s CIO:

       1. Disclose in future budget submissions the full range of OCIO
          responsibilities and sources of funding, including the IT services provided
          to and reimbursements expected from OAs through the Working Capital
          Fund.

To prepare for the departmental Investment Review Board’s review of the
FY 2007 budget submission, we recommend that the Department’s CIO:

       2. Complete analyzing performance gaps among duplicate systems in the
          11 common business areas and, by June 2005, recommend to the
          Investment Review Board how consolidating these systems should be
          funded and managed.

       3. Keep the House and Senate Committees on Appropriations informed of the
          planned actions and ensure the FY 2007 and future-year budget
          submissions reflect the planned use of anticipated cost savings from these
          consolidation initiatives.

To enhance future IT budget submissions and increase the effectiveness of its
oversight of contractors’ work, we recommend that the Department’s CIO:


10
     OIG Report Number FI-2005-001, “DOT Information Security Program,” October 1, 2004.
                                                                                13


   4. Develop a multi-year plan for continued enhancement of IT investment
      management, IT security, and E-Government services in the Department.
      The plan should contain interim activities, milestones, and estimated
      resource needs and be used in estimating annual budget requests.

   5. Work with the Office of Acquisition to develop an action plan to strengthen
      oversight of contract services and to ensure the Department obtains the best
      value of services through competition.

   6. Avoid duplicate funding requests between the OCIO and OAs by ensuring
      OAs coordinate with OCIO for performing similar tasks, such as evaluating
      and remediating network vulnerabilities with different software tools.

To implement the E-Government initiatives, we recommend that the Department’s
CIO:

   7. Refine its cost-saving estimate (18 percent to 26 percent based on industry
      average) for the planned IT infrastructure consolidation at the departmental
      Headquarters and reflect the anticipated cost savings in the Department’s
      FY 2007 and future-year budget submissions.

   8. Estimate the savings that can be achieved through a Department-wide IT
      infrastructure consolidation, including FAA and OA field offices, for the
      departmental Investment Review Board’s consideration.

   9. Work with the E-payroll steering committee to develop and implement an
      action plan to strengthen project management and correct the weaknesses
      identified for the conversion to the Department of the Interior’s payroll
      system and submit the plan to the House and Senate Committees on
      Appropriations, as directed by the Senate committee.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided the OCIO with a draft of this report on March 1, 2005, and the OCIO
provided a written response on March 30, 2005. The OCIO concurred with all
nine recommendations and provided corrective action dates for recommendations
4 and 7. The OCIO requested we modify page ix of our report to read “the OCIO
stated that its request is necessary to ensure consistent oversight of all OA’s
infrastructure. However, considering today’s tight budget environment, the OCIO
should have insisted that the FAA coordinate their activities to determine the most
cost effective way to meet the DOT requirement.” We have modified our report to
reflect the intent of this requested change.
                                                                                  14


Specific comments by the OCIO and its planned actions on our recommendations
are provided below.

Recommendation 1: The OCIO concurred. The OCIO agrees that it should more
clearly outline its total financial profile by linking both salaries and expenses and
the WCF requests. The OCIO noted the FY 2006 budget request defined in more
detail the lines of business. In the future, the OCIO intends to include a more
detailed explanation of the full range of sources available to the OCIO.

OIG Response:        The OCIO’s planned actions meet the intent of our
recommendation. However, we request that the OCIO provide us with a
timeframe for the proposed corrective action.

Recommendation 2: The OCIO concurred. The OCIO agreed that a more
complete gap analysis among duplicate systems is necessary, including
documented funding and management strategies.

OIG Response:        The OCIO’s planned actions meet the intent of our
recommendation. However, we request that OCIO provide us with a timeframe
for the proposed corrective action.

Recommendation 3: The OCIO concurred. The OCIO will keep the House and
Senate Appropriations committees informed of planned actions and ensure the
FY 2007 and future year’s submissions reflect the planned use of anticipated cost
savings from these consolidation initiatives.

OIG Response:        The OCIO’s planned actions meet the intent of our
recommendation. However, we request that the OCIO provide us with a
timeframe for the proposed corrective action.

Recommendation 4: The OCIO concurred. The OCIO agrees that a multi-year
plan for continued enhancement of IT investment management, IT security, and
E-Government services in the Department is necessary and that it should contain
interim activities, milestones, and estimated resource needs used in estimating
annual budgets. The OCIO will update and refine the existing Departmental
Information Resources Management Plan by September 2005 to address this
recommendation.

OIG Response:         The OCIO’s planned actions meet the intent of our
recommendation.

Recommendation 5: The OCIO concurred. The OCIO agrees that it must work
with the Office of Acquisition to improve competition, strengthen oversight of
contractors’ work, and more clearly define specific activities and deliverables.
                                                                             15


OIG Response:        The OCIO’s planned actions meet the intent of our
recommendation. However, we request that the OCIO provide us with a
timeframe for the proposed corrective action.

Recommendation 6: The OCIO concurred. The OCIO agrees that OAs must
improve coordination with the DOT OCIO to avoid duplicate funding requests for
performing similar tasks, such as evaluating and remediating network
vulnerabilities.

OIG Response:        The OCIO’s planned actions meet the intent of our
recommendation. However, we request that the OCIO provide us with a
timeframe for the proposed corrective action.

Recommendation 7: The OCIO concurred. The OCIO agrees that it must refine
cost-savings estimates for the planned IT infrastructure consolidation at the
departmental Headquarters and reflect the anticipated cost savings in the
Department’s FY 2007 and future-year budget submissions. A cost-benefit
analysis is expected to be completed by August 2005.

OIG Response:       The OCIO’s planned actions meet the intent of our
recommendation.

Recommendation 8: The OCIO concurred. The OCIO agrees that it must
estimate the savings that can be achieved through a Department-wide IT
infrastructure consolidation, including FAA and OA field offices, and that it
should present these estimates to the departmental Investment Review Board for
consideration.

OIG Response:        The OCIO’s planned actions meet the intent of our
recommendation. However, we request that the OCIO provide us with a
timeframe for the proposed corrective action.

Recommendation 9: The OCIO concurred. The OCIO agrees that it must work
with the E-payroll steering committee to develop and implement an action plan to
strengthen project management and correct the weaknesses identified for the
conversion to the Department of Interior’s payroll system. A report of these
actions has been provided to the Congressional committees.

OIG Response:        The OCIO’s planned actions meet the intent of our
recommendation. However, we request that the OCIO provide us with a
timeframe for the proposed corrective action.
                                                                               16


ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, we request that
you provide specific corrective action dates for recommendations 1, 2, 3, 5, 6, 8,
and 9 within 30 days.
                                                                             17




EXHIBIT A. SCOPE AND METHODOLOGY
This report addresses the results of our audit of the FY 2005 departmental OCIO
IT budget requests for enhancing IT security, E-Government services, and IT
investment management. We conducted this audit in response to a request by the
Senate Committee on Appropriations.

Our review included evaluating the OCIO’s and OAs’ budget documentation and
interviewing officials from the OCIO, the OAs, and the Office of the Secretary
Office of the Assistant Secretary for Administration. We reviewed documents
supporting OCIO-appropriated funds to determine their adequacy in supporting
planned activities for IT investment management, IT security, and E-Government
service.

We also reviewed documents transferring funds through the WCF to the OCIO. In
evaluating documents from the WCF, we focused on determining the full funding
levels available to the OCIO through the WCF compared to the direct funds OCIO
received.

In evaluating whether overlapping or duplication existed in the Department’s
budgets, we reviewed the FY 2005 budget request for the Department with
emphasis on the Department’s IT Investment Portfolio (Exhibit 53) and the
Business Cases (Exhibit 300) being submitted by the Department to OMB. We
also reviewed documents and minutes of meetings for the Department’s
Investment Review Board to determine whether substantial and proactive reviews
were being performed. We met with members of the Senate Committee on
Appropriations to give them a status report on our audit and obtain their input.

Our audit work was performed between March 2004 and December 2004 at the
Department’s Headquarters in Washington, DC. The audit was conducted in
accordance with Government Auditing Standards prescribed by the Comptroller
General of the United States and included a review of internal management
controls over the budget process and such tests as we considered necessary to
provide reasonable assurance of detecting abuse or illegal acts.




Exhibit A. Scope and Methodology
                                                                        18




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


Name                                Title
  Rebecca Leng                      Deputy Assistant Inspector
                                     General for IT and Computer
                                     Security
   Phil deGonzague                  Project Manager
   Michael Marshlick                Computer Scientist Advisor
   Brad Kistler                     Information Technology Specialist
   Aaron Nguyen                     Computer Scientist




Exhibit B. Major Contributors to This Report
                            19




APPENDIX. AGENCY COMMENTS




Appendix. Agency Comments
                            20




Appendix. Agency Comments
                            21




Appendix. Agency Comments
                            22




Appendix. Agency Comments
